                                   Report Template Version = 09-08-04




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   CARRIER MEDICAL REVIEW 

   PROGRESSIVE CORRECTIVE 

           ACTION





                    Daniel R. Levinson

                     Inspector General 


                      October 2005

                     OEI-02-03-00300

                                                                       Report Template Version = 09-08-04




                    Office of Inspector General
                                     http://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                                                         Report Template Version = 09-08-04




Δ   E X E C U T I V E                    S U M M A R Y                       





                  OBJECTIVES
                  To determine whether Medicare carriers have implemented medical
                  review progressive corrective action strategies for physicians in
                  accordance with guidance issued by the Centers for Medicare &
                  Medicaid Services (CMS).

                  To determine whether progressive corrective action is achieving desired
                  results, which are to reduce physician error rates and to modify the
                  behavior of physicians.


                  BACKGROUND
                  In fiscal year (FY) 2000, CMS revised its Program Integrity policy to
                  include a new process for conducting medical review. In general, this
                  revised strategy uses progressive corrective action approaches such as
                  preliminary data analysis, probe medical reviews, and the calculation of
                  billing error rates to correct billing problems through targeted education
                  and training. The ultimate goal of these strategies is to reduce billing
                  and payment errors.

                  Progressive corrective action strategies have taken on increased
                  significance under the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA). Section 921 of the MMA highlights
                  the importance of providing effective education and training to Medicare
                  participating providers. It provides increased funding to improve the
                  accuracy of billing and coding claims data and the timeliness of
                  contractor responses.1 In addition, effective October 1, 2005, the MMA
                  requires Medicare contractors to use claims payment error rate
                  information as “an incentive to implement effective education and
                  outreach programs.”2
                  Under progressive corrective action strategies, carriers are instructed
                  to: (1) conduct preliminary data analysis to identify inappropriate,
                  unnecessary, or excessive provider claims billed to the Medicare
                  program; (2) complete a medical review of a probe sample of provider
                  claims to determine the severity of the billing problem; (3) consider
                  indicators such as the individual provider error rate when deciding how

                  1 MMA, section 921(d)(2). 

                  2 MMA, section 921(b)(1). 





OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                    i
                                                                          Report Template Version = 09-08-04




E X E C U T I V E              S U     M M A R Y


                   to address a problem; (4) conduct medical review activities that are
                   appropriate to the identified problem; and (5) provide education and
                   training to all providers identified as aberrant billers.

                   In addition, carriers are required to have a tracking system and
                   document the following five items: all educational contacts made as a
                   result of actions to correct identified problems; the results of quarterly
                   reassessments for all providers; the date a provider is put on a provider-
                   specific edit; the date edits are turned off; and the results of appealed
                   medical review decisions.

                   For this inspection, we conducted a document review of carrier manual
                   instructions and program memoranda, reviewed 18 Medicare Part B
                   carriers’ tracking systems for all physicians who were first identified for
                   progressive corrective action during the first two quarters of FY 2003,
                   and collected information from staff at CMS and 18 Part B carriers.


                   FINDINGS
                   Carriers are generally implementing progressive corrective action
                   strategies consistent with CMS guidance. Our examination of the
                   data from carriers’ tracking systems for Medicare participating
                   physicians leads us to conclude that carriers are generally
                   implementing progressive corrective action strategies consistent with
                   CMS guidance. Even though carriers are not required to document
                   their approaches in all cases, there is evidence in their tracking systems
                   that they are implementing the five progressive corrective action
                   approaches. Specifically,
                   •	   sixteen carriers have evidence in their tracking systems that their
                        decision to conduct medical review is based on the results of
                        preliminary data analysis,
                   •	   all eighteen carriers have information indicating that they conduct
                        pre-or postpayment probes to validate suspected aberrant billing
                        behavior for at least some of the physicians identified for corrective
                        action,
                   •	   sixteen carriers include error rate calculations in their tracking
                        systems for at least some of the identified physicians, which
                        indicates that carriers consider error rates when deciding how to
                        address a given billing problem,




 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                   ii
                                                                          Report Template Version = 09-08-04




E X E C U T I V E              S U     M M A R Y


                   •	   all eighteen carriers have information documenting that they take
                        steps to subject physicians to reasonable amounts of medical review,
                        and
                   •	   seventeen carriers have information in their system documenting
                        that they provide education and training to at least some of the
                        physicians identified for progressive corrective action.

                   In addition, in our interviews with the 18 carriers, they confirm that
                   they are implementing corrective action strategies, and they provide
                   explanations of how they carry out each of the 5 approaches.
                   However, carriers are not following all tracking requirements.
                   Carriers are required to have a tracking system and document five
                   specific progressive corrective action elements. We found that while all
                   carriers have a tracking system, none of the carriers document all the
                   required elements. They are most commonly missing the results of
                   quarterly reassessments and information on contacts made to correct
                   identified problems.
                   Little information exists to determine whether progressive
                   corrective action strategies are achieving desired results. We
                   found that carriers calculated baseline and subsequent error rates for
                   an average of 8 percent of the 2,316 physicians identified for
                   corrective action during the first two quarters of FY 2003, which is too
                   small a sample to determine whether or not progressive corrective
                   action strategies are effective. Additionally, CMS relies primarily on
                   compliance-based oversight mechanisms that do not address
                   progressive corrective action outcomes. As a result, we cannot
                   determine whether progressive corrective action strategies reduce
                   individual physician error rates and/or modify the behavior of
                   physicians.


                   RECOMMENDATIONS
                   The MMA highlights the importance of providing effective education
                   and training to Medicare participating providers. However, CMS does
                   not currently have any method that measures the effectiveness of
                   progressive corrective action strategies and whether the strategies
                   reduce individual physician error rates and/or modify the behavior of
                   physicians.

                   To address these issues, we recommend that CMS:



 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  iii
                                                                          Report Template Version = 09-08-04




E X E C U T I V E              S U     M M A R Y


                   •	   Institute outcome-based program measures to better determine
                        whether progressive corrective action strategies reduce individual
                        physician error rates and/or modify the behavior of physicians.
                   •	   Conduct reviews of carrier tracking systems to ensure that carriers
                        are complying with requirements.


                   AGENCY COMMENTS
                   CMS concurred with our recommendations. CMS further commented
                   that it has already taken steps to include reviews of carrier tracking
                   systems as part of its annual SAS-70 reviews. The full text of CMS’s
                   comments is included in Appendix A.

                   CMS also commented that it will “continue to require its contractors to
                   evaluate the effectiveness of corrective actions taken.” It noted that
                   there are a number of methods that can be employed to identify
                   progressive corrective action outcomes. CMS commented that error
                   rates, as well as analysis of claims data, may be sufficient to determine
                   the effectiveness of a progressive corrective action intervention.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We agree. However, we question whether carriers will evaluate and
                   track the effectiveness of corrective action strategies in absence of more
                   guidance from CMS. For example, further guidance on when to require
                   the calculation of individual provider error rates would increase CMS’s
                   ability to determine whether progressive corrective action strategies are
                   achieving desired results. We reiterate that, based on our review of
                   carriers’ tracking systems, we found that none of the 18 carriers tracked
                   the results of quarterly reassessments for all physicians identified for
                   corrective action during our sampling timeframe, as required by CMS.




 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                   iv
                                                                             Report Template Version = 09-08-04




Δ   T A B L E          O F           C O N T E N T S                              





         EXECUTIVE SUMMARY ...................................
 i


         INTRODUCTION........................................... 1




         FINDINGS................................................. 9

                   Carriers’ implementation of progressive corrective action . . . . . . . 9 


                   Carriers are not following all tracking requirements . . . . . . . . . . 11 


                   Little information exists about whether progressive corrective 

                   action achieves results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                   Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                                                                         Report Template Version = 09-08-04




Δ   I N T R O D U C T I O N                           



                  OBJECTIVES
                  To determine whether Medicare carriers have implemented medical
                  review progressive corrective action strategies for physicians in
                  accordance with guidance issued by the Centers for Medicare &
                  Medicaid Services (CMS).

                  To determine whether progressive corrective action is achieving desired
                  results, which are to reduce physician error rates and to modify the
                  behavior of physicians.


                  BACKGROUND
                  In fiscal year (FY) 2000, CMS revised its Program Integrity policy to
                  include a new process for conducting medical review. In general, this
                  revised strategy uses progressive corrective action approaches such as
                  preliminary data analysis, probe medical reviews, and the calculation of
                  billing error rates to correct billing problems through targeted education
                  and training. The ultimate goal of these strategies is to reduce billing
                  and payment errors.

                  Progressive corrective action strategies have taken on increased
                  significance under the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA). Section 921 of the MMA highlights
                  the importance of providing effective education and training to Medicare
                  participating providers. It provides increased funding to improve the
                  accuracy of billing and coding claims data and the timeliness of
                  contractor responses.3 In addition, effective October 1, 2005, the MMA
                  requires Medicare contractors to use claims payment error rate
                  information as “an incentive to implement effective education and
                  outreach programs.”4
                  Medical Review and Progressive Corrective Action
                  Section 1862(a)(1)(A) of the Social Security Act states that Medicare
                  covers services that are included in a Medicare benefit category, are not
                  statutorily excluded, and are reasonable and necessary. Federal statute
                  sets forth broad categories of benefits covered by Medicare, but does not
                  provide a comprehensive list of services that are reasonable and
                  necessary for beneficiaries’ medical care. CMS and the contractors

                  3 MMA, section 921(d)(2). 

                  4 MMA, section 921(b)(1). 





OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                   1
                                                                           Report Template Version = 09-08-04




I N T R O D        U C T      I O N


                    (including Medicare Part B carriers) are responsible for reviewing,
                    processing, and adjudicating claims to determine whether services
                    provided are reasonable and necessary, and are therefore covered under
                    Medicare.

                    In an effort to minimize fraud, waste, and abuse in Medicare, CMS
                    requires Part B carriers to review claims submitted for payment.5
                    Specifically, under the Program Integrity medical review function,
                    carriers are instructed to review submitted claims to determine whether
                    they are reasonable and necessary and are correctly coded. When
                    conducting medical review, carriers are instructed to apply progressive
                    corrective action strategies.

                    CMS program memorandum AB-00-72, dated August 7, 2000, provides
                    Medicare carriers with written instructions on progressive corrective
                    action strategies. CMS describes these instructions as “ . . . further
                    guidance, underlying principles and approaches to be used in deciding
                    how to deploy resources and tools for medical review.” These
                    instructions require some specific activities, but also allow carriers
                    flexibility in the approaches they may use when carrying out
                    progressive corrective action.

                    CMS instructs carriers to perform preliminary data analysis to identify
                    inappropriate, unnecessary, or excessive provider claims billed to the
                    Medicare program. In addition, carriers must complete a medical
                    review of a probe sample of provider claims to determine the degree of
                    severity of the billing problem.6 When problems are identified, carriers
                    are to conduct medical review activities that are appropriate to the
                    problem. Carriers must also provide education and training to all
                    providers who are identified as aberrant billers. See the chart on the
                    next page for a primer on progressive corrective action approaches,
                    which are outlined in CMS program memorandum AB-00-72.




                    5 CMS, “Medicare Program Integrity Manual,” June 2000.
                    6 With the exception of not exceeding a probe sample size of 20-40 claims, currently CMS

                      does not require carriers to use a specific sampling methodology (e.g., a random sample)
                      for the probe medical review.



 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                         2
                                                                                    Report Template Version = 09-08-04



I N T R O D       U C T       I O N 





    Primer on Progressive Corrective Action Approaches and Activities
      Recommended                   Underlying
        Approach                     Principle                             Specific Activities
     The decision to          Preliminary data             Activities may include simple identification of
     conduct medical          analysis determines          aberrancies in billing patterns or claims;
     review should be         whether patterns of          provider referrals; reports from CMS; and/or
     data driven.             claims submission            comparisons between peer groups, for
                              and payments                 example, how identified physicians’ billing
                              indicate potential           patterns compare to billing patterns of peers in
                              problems.                    the same specialty.

     Validate potential       Probe sample reviews         Carriers should select a sample (either
     problems by              validate the existence       prepayment or postpayment) that generally
     conducting probe         of billing errors.           does not exceed more than 20 to 40 claims for
     reviews.                                              any individual provider problem, or 100
                                                           claims or services from a wider universe of
                                                           providers.
     The provider error       Information such as          Carriers should consider the error rate. They
     rate is an               provider billing or          are also encouraged to consider the total value
     important                payment error rates          of the problem, the past history of the
     consideration.           guide carriers in how        provider, and/or whether the severity of the
                              to address the billing       problem is determined to be minor, moderate,
                              problem.                     or significant in nature.
     Subject providers        Medical review               Carriers should target problems that are high
     only to the amount       resources are                cost, likely to have adverse impact on
     of medical review        allocated to providers       beneficiaries, and/or are problems that have
     necessary.               or services where the        become progressively worse.
                              Medicare Trust Fund
                              is at greatest risk.
     Provider feedback        Education and                Carriers should provide education and training
     and education is an      feedback is a core           to all providers identified for medical review.
     essential part of        step in solving billing      This education can be in the form of direct
     solving problems.        problems.                    one-on-one contacts, through telephone or
                                                           conference calls, and/or through group
                                                           meetings. These are referred to as types of
                                                           interventions.
    Source: CMS, Medical Review Progressive Corrective Action Program Memoranda Transmittal AB-00-72, August 2000.




       OEI-02-03-00300       CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                    3
                                                                             Report Template Version = 09-08-04




I N T R O D        U C T         I O N


                    In addition, carriers are required to have a tracking system that
                    documents the following five items:
                    •	     all educational contacts made as a result of actions to correct
                           identified billing problems. This information may include dates
                           when educational letters were mailed out or when telephone or
                           onsite meetings were held,
                    •	     results of quarterly reassessments to determine if behavior changed
                           after the provider received necessary education and training,
                    •	     date a provider is put on a provider-specific edit,7

                    •	     date a provider is taken off an edit, and

                    •	     results of appealed medical review decisions.

                    National Paid Claims Error Rate
                    Currently, CMS contracts with the program safeguard contractor,
                    AdvanceMed, to calculate the national paid claims error rate through
                    the Comprehensive Error Rate Testing (CERT) program.8 The goal of
                    this work is to improve the accuracy of payment decisions made by
                    Medicare contractors. Based on local and national coverage policies, a
                    medical review team reviews information the carrier used to make its
                    decision “to verify that decisions regarding the claims were accurate
                    and based on sound policy.” In FY 2003, CMS found that carriers paid
                    7.3 percent of all Medicare Part B claims in error.9 It is CMS’s
                    expectation that progressive corrective action intervention efforts will
                    contribute to a reduction in the national paid claims error rate.10
                    CMS Oversight
                    In FY 2003, CMS initiated the Self-Assessment, Performance Oversight,
                    and Comprehensive Error Rate Testing and Educational program
                    (SPACE) and began using it to conduct oversight of carrier activities,




                    7 Edits are software-based controls used to prevent an overutilization of codes, upcoding to

                         a higher reimbursement rate, or inappropriate frequencies of services billed for the same
                         beneficiary. Edits are put in place to flag any group of claims that does not follow
                         Medicare coverage guidelines and may serve to delay or reject payments.
                    8 From fiscal year 1996 to fiscal year 2002, the Office of Inspector General calculated the
                         national Medicare paid claims error rate. In fiscal year 2003, CMS assumed this
                         responsibility.
                    9 This estimate excludes nonresponse claims.
                    10 CMS, “FY 2003 Improper Medicare Fee For Service Payments Report,” November 2003.




 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                          4
                                                                           Report Template Version = 09-08-04




I N T R O D        U C T      I O N


                    including those activities associated with progressive corrective action
                    interventions. The SPACE program consists of the following:
                    •	   Self-Assessment —“Certification Package for Internal Controls”- A
                         carrier’s self-assessment to identify and correct any weakness
                         within an operational area;
                    •	   Performance Oversight —“Statement on Auditing Standards
                         Number 70” (SAS-70) — An audit of a Medicare contractor’s
                         operational areas conducted by an independent auditing firm.
                         Among other elements, auditors measure whether internal controls
                         and objectives for medical review are in place and based on CMS
                         instructions;
                    •	   Comprehensive Error Rate Testing — A program safeguard
                         contractor-run program that measures carriers’ paid claims error
                         rates; and
                    •	   Educational Training Program — An educational interaction
                         between CMS staff and carriers based on potential or current areas
                         of contractor vulnerability. Educational interventions may be based
                         on findings from SAS-70 audits or other CMS concerns.
                    Related Work
                    The Government Accountability Office (GAO) issued a report entitled
                    “Recent CMS Reforms Address Carrier Scrutiny of Physicians’ Claims
                    for Payment” in May 2002.11 This report describes the progressive
                    corrective action strategy and its use of provider education in
                    combination with medical review, as well as its effects on physician paid
                    claims. GAO found that only a small percentage of total physician
                    claims are ever selected for medical review, which can limit progressive
                    corrective action’s influence on reducing the national paid claims error
                    rate.


                    SCOPE
                    This inspection determines the extent to which carriers have
                    implemented progressive corrective action strategies consistent with
                    CMS guidance. It does not determine the effectiveness of any individual
                    carrier’s use of progressive corrective action strategies. In addition, this



                    11 GAO-02-693, May 2002.




 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                   5
                                                                             Report Template Version = 09-08-04




I N T R O D        U C T         I O N


                    inspection focuses solely on physicians and excludes other types of
                    providers that may be identified for corrective action.


                    METHODOLOGY
                    We obtained information for this inspection from a number of sources: a
                    document review of carrier manual instructions and transmittals, a
                    review of 18 Medicare Part B carriers’ tracking systems, telephone
                    interviews and onsite discussions with carrier staff, and telephone and
                    in-person interviews with key CMS regional and central office staff.
                    Document Review
                    We reviewed the “Medicare Program Integrity Manual” and CMS
                    Program Memoranda transmittals pertaining to progressive corrective
                    action and other relevant documents.12 These documents were
                    primarily used to determine the approaches and recommended activities
                    under progressive corrective action.
                    Tracking System and Error Rate Analysis
                    We contacted 18 Medicare Part B carriers and requested a description of
                    the variables listed in their tracking system. We also asked for data for
                    all physicians who were first identified for progressive corrective action
                    during the first or second quarters of FY 2003. For all identified
                    physicians, we requested that carriers submit the following information:
                    •	     all education and training activities in FY 2003;13

                    •	     error rates prior to progressive corrective action intervention,
                           i.e., “baseline error rates,” and error rates after receiving
                           progressive corrective action intervention, i.e., “subsequent error
                           rates” that were calculated in FY 2003; and
                    •	     any information regarding the status of appealed medical review
                           decisions.
                    We developed an instrument to review and analyze the variables and
                    data in the carriers’ tracking system. Specifically, we determined
                    whether each carrier documented both the required information and
                    any other information regarding recommended progressive corrective


                    12 CMS, “Medicare Program Integrity Manual,” June 2000.
                    13 Carriers had a reasonable amount of time during the course of fiscal year 2003 to provide

                         education and/or training and conduct at least one quarterly reassessment, as required
                         by CMS guidance.



 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                          6
                                                                             Report Template Version = 09-08-04




I N T R O D        U C T         I O N


                    action approaches and/or activities. Note that we did not independently
                    verify the accuracy of any of the data in the tracking systems.

                    We also analyzed the error rate information provided by carriers.
                    Specifically, we determined the extent to which carriers calculated
                    baseline and subsequent error rates for the physicians identified for
                    progressive corrective action.
                    Carrier Onsite Discussions and Telephone Interviews
                    We conducted site visits with three carriers to determine their
                    understanding of progressive corrective action strategies and objectives.
                    We also conducted structured telephone interviews with the supervising
                    staff at each of the 18 Medicare Part B carriers involved in conducting
                    progressive corrective action activities.14 During telephone interviews,
                    we gathered information about carriers’ experiences implementing
                    progressive corrective action, which included:
                    •	     the extent to which carriers have implemented the strategies,

                    •	     the extent to which progressive corrective action has achieved
                           desired results, and
                    •	     how CMS oversees carriers’ performance related to progressive
                           corrective action.
                    CMS Central Office and Regional Office Interviews
                    We conducted structured in-person interviews with key staff at CMS
                    central office who are responsible for Program Integrity, medical review
                    oversight. We also conducted telephone interviews with each of the
                    eight CMS regional offices.15 Our questions focused on the following:
                    •	     the extent to which carriers have implemented the strategies,

                    •	     the extent to which progressive corrective action strategies have
                           achieved desired results, and
                    •	     the oversight mechanisms CMS currently uses to determine
                           carrier performance with regard to progressive corrective action.




                    14 We excluded Triple-S, the carrier for Puerto Rico and the Virgin Islands.
                    15 At the time we collected data for this inspection, CMS had 10 regional offices throughout

                         the United States, and for its medical review work, had combined regions 8, 9, and 10
                         into a consortium.



 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                         7
                                                                           Report Template Version = 09-08-04




I N T R O D        U C T      I O N 





                    LIMITATIONS
                    Although CMS guidance instructs carriers to consider individual
                    provider error rates when deciding how to address a billing problem, it
                    does not explicitly require the carriers to calculate baseline or
                    subsequent billing and/or payment error rates. As we discuss in more
                    detail later, carriers had limited information on baseline and
                    subsequent error rates in their tracking systems. As a result, we were
                    unable to determine whether progressive corrective action strategies
                    reduce billing and/or payment errors.


                    STANDARDS
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-02-03-00300    CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                   8
                                                                             Report Template Version = 09-08-04




Δ      F I N D I N G S
Carriers are generally implementing progressive
                                                              Our examination of the data from
corrective action strategies consistent with CMS
                                                              carriers’ tracking systems for
                                        guidance
                                                              Medicare participating physicians
                     leads us to conclude that carriers are generally implementing
                     progressive corrective action strategies consistent with CMS guidance.
                     Even though carriers are not required to document their approaches in
                     all cases, there is evidence in their tracking systems that they are
                     implementing the five progressive corrective action approaches.16
                     Additionally, in our interviews with the 18 carriers, they confirm that
                     they are generally implementing corrective action strategies, and they
                     provide explanations of how they carry out each of the 5 specific
                     approaches.
                     The decision to conduct medical review should be data driven.
                     Sixteen of the eighteen carriers have evidence in their tracking system
                     that their decision to conduct medical review is based on the results of
                     preliminary data analysis. Carriers’ tracking systems have information
                     such as indications that a given physician appeared to be upcoding for a
                     particular service and indications that a given physician billed for
                     significantly higher amounts than other physicians in the same area of
                     specialization.

                     In addition, in our interviews with the carriers, all 18 report that their
                     decision to conduct medical review is based on the results of preliminary
                     data analysis. Specifically, all carriers report that they analyze
                     provider billing information to identify aberrant billing patterns for
                     both physician specific and service specific data prior to conducting
                     medical review.17 When asked to provide further detail, 10 carriers
                     explain that they compare national, State, and local data across
                     provider peer groups to determine where aberrancies exist.
                     Validate potential problems by conducting “probe reviews.” All 18 carriers
                     have information in their tracking systems indicating that they conduct
                     prepayment or postpayment probes to validate suspected aberrant
                     billing behavior. Specifically, carriers’ tracking systems include


                     16 CMS, “Medial Review Progressive Corrective Action,” Program Memoranda Transmittal
                       AB-00-72, August 2000.
                     17 Physician specific data analysis generally involves comparing individual physicians’
                       billing practices with billing practices of other, comparable physicians. Service specific
                       analysis generally involves comparing the billing of particular services with local or
                       national trends data.



   OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                           9
                                                                             Report Template Version = 09-08-04




F   I N D I N G 
S


                      information such as the sample size of a given probe, the number of
                      claims reviewed, the type of probe action taken, and the date that a
                      given probe was closed.

                      Furthermore, in our interviews with the carriers, all 18 report that they
                      use the results of prepayment or postpayment probe medical reviews to
                      validate a potential billing problem. Seven carriers report that probe
                      reviews are one of the most effective progressive corrective action
                      practices. One carrier notes, “The concept of the probe review has been
                      very effective. It can validate that the issue is valid before over-working
                      the provider.”
                      The provider error rate is an important consideration in deciding how to address
                      the problem. Sixteen of the eighteen carriers have error rate calculations
                      in their tracking systems for at least some physicians who were
                      identified for progressive corrective action during the first two quarters
                      of FY 2003. Further, in our interviews, 17 of the 18 carriers report that
                      they consider the individual physician error rate when deciding how to
                      address a physician’s billing problem.
                      Subject providers only to the amount of medical review necessary to address
                      the nature and the extent of the identified problems. All 18 carriers have
                      information in their tracking system indicating that they consider
                      factors such as the dollar value of the billing problem, the history of the
                      physician’s billing patterns and/or the physician’s billing or payment
                      error rate when deciding how to address a given billing problem.

                      In our interviews with the carriers, all 18 confirm that they take steps
                      to ensure that physicians are subjected only to reasonable amounts of
                      medical review. For example, all carriers explain that they determine
                      the severity of a problem by examining the dollar value of the identified
                      problem, and/or the past billing history of the physician. Eight carriers
                      also report using the results of probe reviews to determine the level of a
                      given billing problem. This severity level information is then used to
                      determine the type of corrective action.
                      Provider feedback and education is an essential part of solving problems.
                      Seventeen of eighteen carriers have information in their tracking
                      systems documenting that they provided education and training to at
                      least some of the physicians identified for progressive corrective action
                      during the first two quarters of FY 2003. The tracking systems have
                      indications that educational letters were sent to at least some
                      physicians or that education was provided on a given date. The extent


    OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  10
                                                                             Report Template Version = 09-08-04




F   I N D I N G        S


                      to which carriers meet the requirement to track this information for all
                      physicians identified for progressive corrective action is discussed in
                      greater detail in the next section.18
                      Additionally, in our interviews with the carriers, all 18 report that they
                      use feedback and education to solve billing problems. Specifically, all
                      18 carriers explain that they provide education and training on a one-
                      on-one and/or group basis. They also report providing training through
                      written materials or electronically.

However, carriers are not following all tracking             Carriers are required to have a
                                                             tracking system and document
                                  requirements
                                                             five specific elements. We found
                      that all carriers have a tracking system; however, none of the carriers
                      document all the required elements. (See Table 1 on the next page.)

                      Carriers are instructed to “identify all individual providers and track all
                      contacts made as a result of actions to correct identified problems.”
                      Twelve of eighteen carriers do not track this information for all
                      physicians identified for progressive corrective action during the first
                      two quarters of FY 2003, as required. Specifically, six carriers have this
                      information for at least half but not all of the identified physicians. Five
                      carriers document contact information for less than half of the identified
                      physicians. One carrier does not track any information for any of the
                      identified physicians.

                      Carriers are also required to reassess all providers on medical review
                      quarterly to determine if their behavior has changed. The results of
                      these reassessments must be noted in their tracking system.19 None of
                      the 18 carriers track the results of these quarterly reviews for all
                      physicians identified for corrective action during our sampling
                      timeframe. One carrier tracks quarterly results for less than half of the
                      identified physicians. While some carriers have subsequent error rate
                      calculations for some identified physicians, there is often no indication
                      that these rates were calculated on a quarterly basis. Further, there
                      are no other reassessment measures, such as a downgrade from a major
                      problem to a minor problem, recorded for all identified physicians.



                      18 CMS, “Medial Review Progressive Corrective Action,” Program Memoranda Transmittal
                        AB-00-72, August 2000.
                      19 Quarterly reassessments included subsequent error rates or any other measure
                        indicating that the physician’s billing behavior was reevaluated at 3-month intervals.



    OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                       11
                                                                                    Report Template Version = 09-08-04




F   I N D I N G             S        





                           Carriers are also required to document the date the provider is put on a
                           provider-specific edit.20 While not all billing problems warrant this type
                           of information, 9 of 18 carriers do not have any dates that physicians
                           who were identified for corrective action during the first two quarters of
                           FY 2003 were placed on an edit. Furthermore, carriers must record the
                           dates that edits are turned off. Eleven carriers do not have this
                           information for any of the identified physicians.

                           Finally, carriers are required to “track and consider the results of
                           appeals in their medical review activities.” Six carriers do not have this
                           information for any of the physicians identified for progressive
                           corrective action during the first two quarters of FY 2003.

         Table 1: Number of Carriers that Follow Tracking System Requirements

                                                                                                       Number of
                                                                                                     Carriers that
                                                        Number of              Number of           Track Information
                                                       Carriers Not             Carriers           for at Least Some
                                                        Following              Following               Identified
               Tracking Requirements                   Requirement            Requirement              Physicians
         All contacts made as a result of
                                                              12                     6                     17
         actions to correct identified problem

         Results of quarterly reassessments
                                                              18                     0                      1
         for all providers

         Date a provider is put on
                                                                                        a
         provider-specific edit for medical                   9                     9                       9
         review
                                                                                        a
         Date edits are turned off                            11                    7                       7

         Results of appealed medical review
                                                              6                     12b                    12
         decisions

         Source: OIG Review of Carrier Tracking Systems, 2004.
         a = Includes carriers that have information on any dates that physicians were placed

         on edits. 

         b = Includes carriers that have information on any appealed medical review decisions. 




                           20 Edits are software-based controls used to prevent an overutilization of codes, upcoding to
                             a higher reimbursement rate, or inappropriate frequencies of services billed for the same
                             beneficiary. Edits are put in place to flag any group of claims that does not follow
                             Medicare coverage guidelines and could serve to delay or reject payments.



    OEI-02-03-00300        CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                       12
                                                                              Report Template Version = 09-08-04




F   I N D I N G        S      





Little information exists to determine whether              Carriers report that progressive
  progressive corrective action strategies are              corrective action strategies seek to
                     achieving desired results              reduce individual physician error
                                                            rates and modify behavior of
                      physicians through education. We found that little information exists
                                                    21

                      to determine whether progressive corrective action strategies are
                      achieving these desired results. Specifically, carriers have limited data
                      on physician error rates, and CMS relies on compliance-based oversight
                      that does not measure progressive corrective action outcomes.
                      Carriers have limited data on physician error rates

                      CMS transmittals instruct carriers to consider the individual provider
                      error rate when deciding how to address a billing problem. Carriers are
                      not, however, explicitly required to calculate or track these error rates
                      for each physician identified for progressive corrective action. We found
                      that carriers calculated baseline error rates for an average of 48 percent
                      of physicians who were identified for progressive corrective action
                      during our sampling timeframe. Seven carriers calculated baseline
                      error rates for less than 50 percent of physicians identified for
                      progressive corrective action during this timeframe. Only one carrier
                      calculated baseline error rates for all identified physicians.

                      Carriers calculated subsequent error rates for even fewer physicians
                      who were identified for progressive corrective action. Specifically,
                      carriers calculated subsequent rates for an average of 8 percent of the
                      physicians identified for corrective action during the first two quarters
                      of FY 2003. Twelve carriers calculated these rates for less than
                      10 percent of identified physicians. Again, only one calculated
                      subsequent rates for all physicians identified for corrective action
                      during this timeframe. See Table 2 on the next page.




                      21 Additionally, CMS guidance (SPACE     Program Guidelines: Contractor Medical Review
                        Oversight, p. 3, October, 2004) indicates, and carriers report, that the ultimate goal of the
                        progressive corrective action strategies is to reduce the national paid claims error rate.



    OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                           13
                                                                                     Report Template Version = 09-08-04




F   I N D I N G              S


      Table 2: Number of Physicians Identified for Progressive Corrective
      Action With Baseline and Subsequent Error Rates by Carrier*


                 Total Number of     Number of    Percentage of Number of      Percentage of
                    Physicians     Physicians with Physicians Physicians with Physicians with
        Carriers  Identified for   Baseline Error with Baseline Subsequent Subsequent Error
                   Progressive         Rates       Error Rates  Error Rates       Rates
                 Corrective Action
            A                          407                  162                 40               0                   0
            B                            8                    7                 88               1                  13
            C                          106                   52                 49               2                   2
            D                           31                   16                 52               0                   0
            E                            2                    0                  0               0                   0
            F                           73                   47                 64              29                  40
            G                          277                  177                 64              14                   5
            H                          327                  224                 69               4                   1
            I                           94                   35                 37              15                  16
            J                           13                   13                100              13                 100
            K                          119                   59                 50               5                   4
            L                          113                   50                 44               3                   3
            M                          216                  168                 78              77                  36
            N                           28                   19                 68               2                   7
            O                          385                   24                  6               4                   1
            P                           48                    0                  0               0                   0
            Q                           59                   51                 86              11                  19
            R                           10                    8                 80               0                   0
         Totals                     2,316                1,112                 48%             180                 8%

       Source: OIG Review of Carrier Tracking Systems, 2004.
       *Physicians were identified during the first two quarters of FY 2003.

                           In total, 180 physicians who were identified for progressive corrective
                           action during the first two quarters of FY 2003 had a baseline and a
                           subsequent error rate. Because this represents only 8 percent of the
                           2,316 physicians who were identified, we are unable to determine
                           whether progressive corrective action interventions do, in fact, reduce
                           individual physician error rates.
                           CMS relies on compliance-based oversight that does not address
                           progressive corrective action outcomes
                           CMS central office reports that the Self-Assessment, Performance
                           Oversight and Comprehensive Error Rate Testing and Educational
                           program (SPACE) measures progressive corrective action outcomes.
                           The SPACE program includes the Certification Package for Internal


    OEI-02-03-00300        CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                     14
                                                                             Report Template Version = 09-08-04




F   I N D I N G        S


                      Controls (CPIC), SAS-70 audits, the Comprehensive Error Rate Testing
                      (CERT) program, and the Educational Training program.

                      The majority of the SPACE program activities measure the extent to
                      which carriers comply with progressive corrective action requirements
                      and whether controls exist to ensure compliance. The primary goal of
                      the self-assessment CPICs is to identify operational areas that are at
                      risk and need improvement. The goal of the SAS-70 audits is to
                      determine if internal controls are in place and whether they are
                      effective. The goal of the Educational Training program is to correct
                      areas of contractor vulnerabilities. None of these three activities
                      measures whether progressive corrective action strategies are reducing
                      individual error rates or modifying behavior of physicians through
                      education.

                      The final component of the SPACE is the CERT program. The CERT
                      program measures the extent to which all Medicare Part B claims were
                      paid in error. The goal of this measure is to improve the accuracy of
                      payment decisions made by Medicare contractors for all Medicare
                      participating providers. In contrast, progressive corrective action
                      strategies aim to reduce the billing or payment errors for a select group
                      of providers who are identified as aberrant billers. Therefore, while the
                      CERT program measures outcomes, it may not be specific enough to
                      determine whether progressive corrective action is achieving its desired
                      results.




    OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  15
                                                                          Report Template Version = 09-08-04




E X E C U T I V E              S U     M M A R Y
Δ    R E C O M M E N D A T I O N S                                   


                   While all carriers appear to be implementing progressive corrective
                   action strategies consistent with CMS guidance, we found that none of
                   the carriers are following all tracking requirements. In addition, we
                   found that little information exists to determine whether progressive
                   corrective action is achieving desired results.

                   The MMA highlights the importance of providing effective education
                   and training to Medicare participating providers. However, CMS does
                   not currently have any method that measures the effectiveness of
                   progressive corrective action strategies and whether the strategies
                   reduce individual physician error rates and/or modify the behavior of
                   physicians.

                   To address these issues, we recommend that CMS:
                   •	   Institute outcome-based program measures to better determine
                        whether progressive corrective action strategies reduce individual
                        physician error rates and/or modify the behavior of physicians. To
                        do this, CMS could:

                        -	      Modify its SPACE program to assess progressive corrective
                                action outcomes.

                        -	      Revise its Medicare Carriers and Intermediaries Manuals to
                                explicitly require the calculation of individual-provider error
                                rates before and after progressive corrective action
                                intervention. This information could then be used to
                                determine whether corrective action strategies do, in fact,
                                help reduce billing errors.
                   •	   Conduct reviews of carriers’ tracking systems to ensure that carriers
                        are complying with requirements.


                   AGENCY COMMENTS
                   CMS concurred with our recommendations. CMS further commented
                   that it has already taken steps to include reviews of carrier tracking
                   systems as part of its annual SAS-70 reviews. The full text of CMS’s
                   comments is included in the Appendix.

                   CMS also commented that it will “continue to require its contractors to
                   evaluate the effectiveness of corrective actions taken.” It noted that
                   there are a number of methods that can be employed to identify
                   progressive corrective action outcomes. CMS commented that error



 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  16
                                                                             Report Template Version = 09-08-04




R   E C O       M M E N D A T            I O N       S


                      rates, as well as analysis of claims data, may be sufficient to determine
                      the effectiveness of a progressive corrective action intervention.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We agree. However, we question whether carriers will evaluate and
                      track the effectiveness of corrective action strategies in absence of more
                      guidance from CMS. For example, further guidance on when to require
                      the calculation of individual provider error rates would increase CMS’s
                      ability to determine whether progressive corrective action strategies are
                      achieving desired results. We reiterate that, based on our review of
                      carriers’ tracking systems, we found that none of the 18 carriers tracked
                      the results of quarterly reassessments for all physicians identified for
                      corrective action during our sampling timeframe, as required by CMS.




    OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  17
                                                                         Report Template Version = 09-08-04




Δ    A P P E N D I X                  





OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  18 

                                                                          Report Template Version = 09-08-04




A P P E N D        I X 





 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  19 

                                                                          Report Template Version = 09-08-04




A P P E N D        I X 





 OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  20 

                                                                         Report Template Version = 09-08-04




Δ   A C K N O W L E D G M E N T S                                    





                  This report was prepared under the direction of Jodi Nudelman, Acting
                  Regional Inspector General for Evaluation and Inspections in the New
                  York regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Ellen Vinkey, Team Leader
                  Christi Macrina, Project Leader

                  David Rudich, Program Analyst

                  Tricia Davis, Director, Medicare and Medicaid Branch

                  Barbara Tedesco, Mathematical Statistician




OEI-02-03-00300   CARRIER MEDICAL REVIEW PROGRESSIVE CORRECTIVE ACTION                                  21
